App. 1
S253903
IN THE SUPREME COURT OF CALIFORNIA
En Banc
In Re ROBERT RYAN SNYDER on Habeas Corpus.

The petition for review is denied. (See In re Dexter
(1979) 25 Cal.3d 921-926 [a habeas corpus petitioner
must exhaust available administrative remedies].)

SUPREME COURT
FILED
JUN 12 2019
Jorge Navarrete, Clerk
Deputy

CANTIL-SAKAUTE
ChiefJustice

App. 2
COURT OF APPEAL OF CALIFORNIA,
SECOND APPELLATE DISTRICT,
DIVISION FOUR
B287811
ROBERT R. SNYDER,
v.
CA Dept, of Corrections
and Rehabilitation,
Respondent.

)
)
)
)
)
)
)
)

(Los Angeles County
Super. Ct. No.
BH011475)
(W. Ryan, Judge)
ORDER

FILED
Feb. 08,2018
Joseph A. Lane, Clerk
tjackson Deputy Clerk
THE COURT:*
The petition for writ of mandate and request for
emergency stay filed January 29, 2018, has been
read and considered. The petition is denied on the
ground Petitioner has not demonstrated entitlement
to extraordinary relief. The superior court correctly
transferred the petition to the judge assigned to the
Criminal Writ Center pursuant to its local rules of
court. (Super. Ct. L.A. County, Local Rules, rule
8.33(a)(3)(b).)
/s/ Nora Manella /s/ Collins
/s/ Epstein
*EPSTEIN, P.J. MANELLA, J. COLLINS, J.

App. 3

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
In re

) CASE NO. BH011475
)

ROBERT R. SNYDER,) ORDER DENYING
On Habeas Corpus.

) WRIT OF HABEAS
) CORPUS
)

) (Filed Nov. 28, 2017)
THE PETITION FOR WRIT OF MANDATE
filed on November 17, 2017, by Robert R. Snyder is
DENIED for the following reasons:
Petitioner alleges that an arbitrary lockdown
procedure was enacted on Oct. 20, 2017 for
“retaliation purposes or other improper motivations.”
He further alleges that, as a result of this lockdown,
he has not had access to the library, religious
services, indoor recreation, mental health groups, or
phone calls for three weeks.
First, the court finds that Petitioner has failed
to allege or provide supporting documentation to
show that he has exhausted his administrative
remedies, only that he has begun to do so.
Second, the Petitioner fails on the merits as
well. The judiciary must grant great deference to a
prison’s administrative expertise because courts are
ill equipped to deal with the complex and difficult
problems of prison administration. (In re Collins
(2001) 86 Cal.App.4th 1176, 1182.) It is only when a
prison deprives an inmate of life, liberty, or property

App. 4
in a manner that falls outside the expected
parameters of the sentence imposed that the due
process clause is invoked. (In re Johnson (2009) 176
Cal.App4th 290, 297; Sandin v. Conner (1995) 515
U.S. 472,485.) Petitioner has failed to show the
conditions to which he is confined fall outside the
expected parameters of his sentence or that the
CDCR has failed to perform a legally required act.
For all the foregoing reasons, the petition is
DENIED.
DATED: 11/28/17 /s/ William C. Ryan
Hon. William C. Ryan
Judge of the Superior
Court of California
County of Los Angeles

